                   AUDIT REPORT
  Survey of NRC’s Support Provided to Resident Inspectors

                OIG-14-A-12            March 18, 2014




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                    UNITED STATES
                           NUCLEAR REGULATORY COMMISSION
                                  WASHINGTON, D.C. 20555-0001




OFFICE OF THE
INSPECTOR GENERAL


                                      March 18, 2014


MEMORANDUM TO:              Mark A. Satorius
                            Executive Director for Operations

                            Eric Leeds
                            Director, Office of Nuclear Reactor Regulation



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    SURVEY OF NRC’S SUPPORT PROVIDED TO
                            RESIDENT INSPECTORS (OIG-14-A-12)


Attached is the Office of the Inspector General’s (OIG) audit report titled Survey of NRC’s
Support Provided to Resident Inspectors. The objective of the audit was to survey the
effectiveness of NRC support provided to Resident Inspectors at nuclear power plants,
fuel-cycle facilities, and construction sites.

OIG identified opportunities to improve the agency’s support of Resident Inspectors which
include: (1) identifying a formal mechanism for obtaining Residents’ perspectives regarding
support issues, and (2) taking measures to ensure that the roles and responsibilities for
existing support systems for Residents’ needs and concerns are communicated and
understood by the appropriate management and staff, and are effectively executed.

If you have any questions, please contact me at 415-5923 or R.K. Wild, Team Leader,
Nuclear Reactor Safety Audit Team, at 415-5948.

Attachment: As stated
                                                         Survey of NRC’s Support Provided to Resident Inspectors



EXECUTIVE SUMMARY

        BACKGROUND

                The Nuclear Regulatory Commission (NRC) is tasked with examining the
                regulatory compliance and safety of licensed nuclear facilities. One of the
                methods that NRC uses to ensure the compliance and safety of nuclear
                power plants is conducting inspections. The core of the NRC inspection
                program for nuclear power plants is carried out by Resident Inspectors 1
                who provide the major onsite NRC presence for inspection and
                assessment of licensee performance and conformance with regulatory
                requirements.


                NRC assigns at least two Residents to each operating nuclear power
                reactor site. Residents are also assigned to Category I fuel cycle
                facilities, 2 gaseous diffusion plants, and new reactor construction sites. As
                of October 2013, there were approximately 148 Residents stationed at 67
                nuclear facilities. From their remote duty locations, NRC Resident
                Inspectors report to assigned regional offices (regions I-IV).

        OBJECTIVE

                The objective of this audit was to survey the effectiveness of NRC support
                provided to Resident Inspectors at nuclear power plants, fuel-cycle
                facilities, and construction sites.

        RESULTS IN BRIEF

                The Office of the Inspector General (OIG) found that the agency generally
                provides Residents with sufficient support to enable them to adequately
                perform their roles and responsibilities. However, there is a perception
                among Residents that support from headquarters and the regions is, at
                times, inconsistent.



1
  Throughout this report, “Resident Inspectors” and or “Residents” refers to both Resident and Senior
Resident Inspectors.
2
  Category I fuel cycle facilities use special nuclear material in the manufacturing process. NRC classifies
special nuclear materials and the facilities that possess them into three categories based on the
materials’ potential for use in nuclear weapons or “strategic significance.” Category I is considered “High
Strategic Significance.”

                                                     i
                                        Survey of NRC’s Support Provided to Resident Inspectors



     These perceptions among the Resident staff exist because the agency has
     not identified a formal mechanism for obtaining, reviewing, and responding
     to Residents’ perspectives regarding the type and level of support they are
     currently provided. By identifying a formal mechanism for obtaining
     Residents’ perspectives and ensuring that the roles and responsibilities for
     existing support systems are understood and effectively executed,
     Residents are apt to feel more engaged and supported by management.

RECOMMENDATIONS

     This report makes recommendations to improve the effectiveness by which
     NRC provides support to Resident Inspectors.

AGENCY COMMENTS

     At an exit conference on January 23, 2014, agency management provided
     informal comments on a draft of this report. OIG incorporated these
     comments into the report, as appropriate.

     On February 19, 2014, the agency provided formal comments, which have
     been included in Appendix C of this report. OIG’s response to the
     agency’s formal comments is contained in Appendix D of this report.




                                   ii
                                  Survey of NRC’s Support Provided to Resident Inspectors




ABBREVIATIONS AND ACRONYMS


       DRP      Division of Reactor Projects

       GAO      Government Accountability Office

       IMC      Inspection Manual Chapter

       IT       Information Technology

       NRC      Nuclear Regulatory Commission

       NRR      Office of Nuclear Reactor Regulation

       OIG      Office of the Inspector General

       RI(s)    Resident Inspector(s)

       SRI(s)   Senior Resident Inspector(s)

       TIA      Task Interface Agreement




                                iii
                                                    Survey of NRC’s Support Provided to Resident Inspectors




TABLE OF CONTENTS

        EXECUTIVE SUMMARY ........................................................................... i

        ABBREVIATIONS AND ACRONYMS ........................................................ iii

        I.        BACKGROUND .............................................................................. 1

        II.       OBJECTIVE .................................................................................... 3

        III.      FINDING

                      RESIDENT INSPECTORS IDENTIFY OPPORTUNITIES FOR SUPPORT
                      IMPROVEMENT. ............................................................................ 3

                      RECOMMENDATIONS ................................................................... 12

        IV.        AGENCY COMMENTS……………………………………………….13

        APPENDICES

               A. OBJECTIVE, SCOPE, AND METHODOLOGY ............................. 14

               B. SURVEY DESIGN AND ADMINISTRATION ................................ 16

               C. AGENCY FORMAL COMMENTS ................................................. 19

               D. OIG ANALYSIS OF AGENCY FORMAL COMMENTS ................. 23




                                                  iv
                                                  Survey of NRC’s Support Provided to Resident Inspectors



I.   BACKGROUND

        Resident Inspectors play a very important role in overseeing NRC
        licensees. Specifically, the core of the NRC inspection program for
        nuclear power plants is carried out by Residents who provide an onsite
        NRC presence for inspection and assessment of licensee performance
        and conformance with regulatory requirements. NRC assigns at least two
        Residents to each operating nuclear power reactor site. Residents are
        also assigned to Category I fuel cycle facilities, gaseous diffusion plants,
        and new reactor construction sites. As of October 2013, there were
        approximately 148 Residents stationed at 67 nuclear facilities. From their
        remote duty locations, NRC Resident Inspectors report to assigned
        regional offices (regions I-IV). The map below illustrates the locations of
        nuclear power reactor sites.



                     Resident Inspector Assignments by Region

                                                                          32
                                                                                                  38
                                                                       Residents
                                                                                               Residents




                                                                                               49
                                                                                            Residents




                                                          29
                           Regional Offices            Residents
                           Headquarters




        Source: NRC, as of October 2013.

        Residents serve as an important interface between the NRC and
        licensees. Residents work as a team with other NRC experts based in
        headquarters and regional offices to make sure the plants adhere to NRC
        rules. They also frequently interact with the licensee staff as they conduct

                                              1
                                                        Survey of NRC’s Support Provided to Resident Inspectors




                walk downs 3 of the plant, discuss plant status with the reactor operators,
                and meet regularly with plant management.

                History of the Resident Inspector Program

                From June 1974 through October 1976, NRC conducted a trial program to
                evaluate the potential benefits of a Resident Inspector program. In April
                1977, staff presented NUREG-0425, “NRC Inspection Alternatives:
                A Study Report,” to the Commission for review. In the report, staff
                concluded that the Resident Inspector concept was viable because it
                made more efficient and effective use of an inspector’s time. Specifically,
                staff recommended to the Commission that the agency adopt a full-time,
                onsite-inspector approach based on a favorable comparison of
                competency, utility, flexibility, objectivity, and licensee motivation. In June
                1977, the Commission approved a revised inspection program that
                included stationing NRC inspectors at all operating nuclear power reactors
                and selected reactors under construction. Initial implementation of the
                Resident Inspector program occurred in 1978 with the assignment of 20
                onsite inspectors. These inspectors were charged with providing
                increased knowledge of conditions at licensed facilities, independently
                verifying licensee performance, and improving incident response
                capability. By 1981, at least one Resident was stationed at each power
                reactor site.

                NRC Organizations Responsible for Supporting Resident Inspectors

                NRC’s Office of Nuclear Reactor Regulation (NRR) conducts a broad
                range of regulatory activities in four primary program areas of rulemaking,
                licensing, oversight, and incident response programs for reactors. The
                Division of Inspection and Regional Support is located within NRR and
                provides centralized management for programs pertaining to operating
                nuclear power reactors, including reactor inspection, performance
                assessment (the Reactor Oversight Process), and operational events.
                Each regional office is also charged with performing inspections, including




3
 A walk down is an activity routinely conducted by Residents that includes walking through the plant to
assess the day-to-day operation, oversight, and condition of the plant.

                                                    2
                                                         Survey of NRC’s Support Provided to Resident Inspectors



                those conducted by Residents. Together, NRR and the regional offices
                provide support for the Resident Inspector program.

II.     OBJECTIVE

                The audit objective was to survey the effectiveness of NRC support
                provided to the Residents at nuclear power plants, fuel-cycle facilities, and
                construction sites. Appendix A provides information on the audit scope
                and methodology.

III.    FINDING

                RESIDENT INSPECTORS IDENTIFY OPPORTUNITIES FOR SUPPORT IMPROVEMENT

                According to feedback provided to OIG from the Resident Inspector
                population, the agency generally provides Residents with sufficient
                support to enable them to adequately perform their roles and
                responsibilities. However, Residents did identify opportunities for the
                agency to improve the type and level of support currently being provided.

                Staff located in remote locations—such as NRC Residents—require
                reliable and consistent support 4 to be effective in their jobs. It is equally
                important that remote employees feel connected to the organization and
                perceive that management is willing to listen to their perspectives.
                However, there is a perception among Residents that support from
                headquarters and regions is, at times, inconsistent. Additionally, some
                Residents identified opportunities where support could be improved by
                facilitating better coordination and communication between headquarters,
                regions, and Residents, as well as providing clearer and more concise
                inspection guidance. These perceptions among the Resident staff exist
                because the agency has not identified a formal mechanism for obtaining,
                reviewing, and responding to Residents’ perspectives regarding the type
                and level of support they are currently provided. Consequently, the
                effectiveness by which Residents are able to perform their roles and
                responsibilities may be negatively affected.


4
  The term “support” refers to both technical and non-technical support. Technical support includes
reviews of inspection findings, technical reviews, and management input and perspectives on agency
guidance. Non-technical support refers to activities associated with office administration, information
technology, coordination, communication, and general management/supervision.

                                                     3
                                                        Survey of NRC’s Support Provided to Resident Inspectors




                Remote Staff Require Consistent Support and Communication

                Staff located at remote sites away from headquarters or the central
                office—as NRC Residents are—require consistent support and sustained
                communication to be effective in their jobs. It is equally important that
                remote employees feel connected to their organization and perceive that
                management is willing to listen to their concerns. These principles are
                recognized both within the academic and government sectors as being
                necessary to ensure remote workers remain engaged and committed.
                A Massachusetts Institute of Technology–Sloan School of Management
                study states the importance of routinely engaging remote employees in a
                relevant, reliable, and timely manner to ensure they remain engaged and
                enabled to perform their jobs. This is vital because remote employees can
                feel disconnected and isolated from their organization due to the lack of
                management action and responsiveness. Therefore, managers are
                encouraged to enable and promote opportunities for sustained
                communication and take steps to help remote employees cope with the
                challenges of working remotely.

                Additionally, the Government Accountability Office (GAO) Internal Control
                Management and Evaluation Tool (GAO Green Book Tool) specifies
                considerations for Federal agencies when creating an environment with
                internal controls. 5 One such consideration for Federal agencies is that
                there is frequent interaction between senior management and operating
                program management, especially when operating from geographically
                dispersed locations. The GAO Green Book Tool emphasizes the
                importance of being engaged by maintaining consistent communication
                with employees so that “Personnel have a means of communicating
                information upstream within the agency through someone other than a
                direct supervisor, and there is genuine willingness to listen on the part of
                management.”




5
  Internal control is an integral component of an organization’s management that provides reasonable
assurance that the following objectives are being achieved: effectiveness and efficiency of operations,
reliability of financial reporting, and compliance with applicable laws and regulations.

                                                    4
                                                       Survey of NRC’s Support Provided to Resident Inspectors




               Some Support to Residents Could Be Improved

               While Residents generally feel that they have sufficient support to perform
               their roles and functions adequately, some specific types of support may
               not be adequate. By means of a survey instrument, 6 OIG learned of a
               perception among Residents that headquarters and regional offices are
               sometimes viewed as disengaged and unresponsive to Residents’ needs
               and concerns. These specific areas of concern span both non-technical
               and technical types of support.

               Concerns With Non-Technical Support

               The majority of Residents’ perspectives on the OIG survey pertained to
               technical support; however, Residents also identified some areas of non-
               technical support, such as activities associated with office administration,
               information technology, communication, and general management
               supervision, that are in need of attention. For example, one Resident
               wrote, “IT [information technology] resources at Resident sites are
               woefully inadequate and unreliable.” Another wrote, “Responses to
               enquiries, requests for assistance, or process requirements are delayed or
               forgotten.” And, another expressed the view that support for Residents
               has been on a steady decline, stating, “I believe we have seen
               considerable erosion in the level and quality of support for RIs [Resident
               Inspectors] and SRIs [Senior Resident Inspectors] in the field….”
               Furthermore, during Resident interviews, multiple Residents expressed
               concerns or dissatisfaction with an agency-relocation program. 7




6
  OIG developed and administered a survey designed to assess Residents’ perspectives on various types
of support provided to them by the agency. At the time of the survey (March 11-29, 2013), OIG invited
144 Residents to participate in the survey. A total of 79 Residents completed the survey for an overall
survey response rate of approximately 55 percent. Of the 79 completed surveys, 35 Residents also
provided multiple written comments. A description of the survey design and administration, and summary
of results, are provided in Appendix B.
7
  The relocation program is part of the NRC Recruitment, Relocation, and Retention Incentives Program.
One program objective is to “Encourage and promote mobility of NRC or other Federal employees by
offering relocation incentives when location or other factors may serve as disincentives to suitable
candidates.”

                                                   5
                                    Survey of NRC’s Support Provided to Resident Inspectors




A sampling of Resident Inspectors’ comments included:

•   “If our office assistants worked more than 10 hours a week (up to 15 or
    20) we could have shifted more of our administrative burden to them.”

•   “It is often difficult for IT personnel from the region or [headquarters] to
    diagnose and address IT issues from hundreds of miles away.”

•   “My IT resources are inadequate, my computer has not been upgraded
    (hardware or software) in a least 5 years and it is slow.”

Concerns With Technical Support

The results of the OIG survey indicate that while more than half of
respondents were satisfied with job-related technical support, a sizable
portion of respondents had concerns. For example:

•   51 percent of survey respondents responded that they “agree” or
    “strongly agree” that they receive timely, high-quality technical support
    in resolving regulatory questions.

•   53 percent of survey respondents responded that they “agree” or
    “strongly agree” that coordination of support between the region and
    headquarters is effective.

•   53 percent of survey respondents responded that they “agree” or
    “strongly agree” that they are able to easily identify an appropriate
    point of contact at headquarters to provide additional technical
    assistance when needed.

•   60 percent of survey respondents responded that they “agree” or
    “strongly agree” that current inspection guidance (inspection
    procedures, inspection manual chapters) is clear, concise, and easily
    understood.

Approximately half of the respondents expounded on their survey
responses by providing written comments on their concerns, as follows:




                                6
                                                       Survey of NRC’s Support Provided to Resident Inspectors



                •   Technical Support: One Resident stated, “Technical support
                    requested from headquarters is not timely,” while another noted, “The
                    process for getting a technical or regulatory answer from headquarters
                    when using the TIA process 8 is unnecessarily time consuming.”
                    Another commented on the usefulness of subject matter experts
                    stating, “The resident staff should be supplied with an updated (and
                    kept updated) list of [headquarters] Subject Matter Experts.
                    Sometimes the person we are referred to has little experience in the
                    subject matter and is little help to the resident staff […].”

                •   Regional and Headquarters Coordination: Residents’ comments also
                    addressed the problems associated with headquarters and regional
                    offices working together to provide support to the Resident staff. For
                    example, “If anything requires the region and headquarters working
                    together, it takes forever and often involves miscommunication.”

                    Another aspect of coordination that many Residents identified as a
                    concern pertained to identifying points of contact within the regional
                    and headquarters offices. For example, multiple Residents provided
                    comments addressing the difficulties associated with communicating
                    with headquarters staff, particularly identifying the appropriate point of
                    contact or subject matter expert. For instance, “It can be difficult to
                    interact with [headquarters] when your project manager is unavailable
                    for whatever reason. Some project managers are much more
                    responsive then [sic] others…Once contact is made the support from
                    [headquarters] is great. Making that contact can be a challenge
                    sometimes. Finding the right group, person etc., all depends on a
                    strong project manager.” Another noted, “There are too many
                    coordinators and not enough regulatory/technical experts to address
                    the regulatory and technical questions needed to disposition issues
                    appropriately.”

                •   Inspection Guidance: Several Residents remarked on the state of
                    inspection guidance, indicating that it is “lacking,” “inconsistent,” and
                    “not written as clearly as it could be.” One Resident articulated that the
                    primary issue with inspection procedures is the general lack of clarity


8
  The Task Interface Agreement (TIA) process is used to address questions or concerns raised within the
NRC regarding nuclear reactor safety and related regulatory and oversight programs. A TIA is a request
from a region or another NRC office for technical assistance from NRR. OIG recently initiated a separate
audit of the TIA process.

                                                   7
                                  Survey of NRC’s Support Provided to Resident Inspectors



   of the guidance versus requirements, including inspection samples.
   Lack of clarity results in inconsistent understanding and application
   among Residents and headquarters technical staff.

NRC Has Not Identified a Formal Mechanism for Obtaining
Residents’ Support Concerns

NRC has not identified a formal mechanism for obtaining Residents’
concerns, including feedback and perspectives on support-related issues.
Furthermore, the Resident support roles and responsibilities of agency
managers could be clarified and communicated.

Residents work through a variety of channels to seek technical and non-
technical support. For example, they may seek technical support directly
from their branch chief or project manager. These are individuals with
whom Residents have a formal relationship. But they may also know of
an individual in one of the engineering branches that they believe can
assist them. Similarly, if they need support with a non-technical issue,
such as with IT systems, they might directly contact their branch chief or
they might also call the IT Help Desk located at headquarters. The
following figure illustrates some of the various formal and informal
relationships Residents may have with individuals or offices that
potentially provide support, as described by Residents during the audit.




                              8
                                     Survey of NRC’s Support Provided to Resident Inspectors




Source: OIG, based on NRC staff and manager interviews.


For Resident Inspectors to be successful, they must be able to access
support from multiple organizations. The success of these disparate
approaches often depends on the experience, knowledge, and
persistence of individual Residents, as they are reliant on identification of
the appropriate subject matter expert(s). Additionally, they must follow up
on the issue or concern without assurance of receiving a timely,
adequately detailed, and appropriate response.

Residents are in a unique position in NRC because they are
geographically separated from NRC staff and management. Being
geographically separated, the Residents cannot readily use traditional
communication vehicles such as the open door policy, drop-in visits with
management, or face-to-face peer interaction. Residents, as an
occupational group, also have a complex organizational relationship,



                                 9
                                Survey of NRC’s Support Provided to Resident Inspectors




because they report from about 70 different locations to 4 geographically
remote regional offices and to about 27 branch chiefs.

As a result of these geographical and organizational separations, the
common challenges that multiple Residents at remote sites face may not
be as evident to management. For example, a Resident at a nuclear
power plant in Florida may have the same challenge needing
management attention as Residents in California and Michigan. However,
neither the Residents, nor their branch chiefs, nor management may
recognize that the problem is affecting multiple sites and may therefore be
more significant. The same challenge may have been encountered and
solved at one site, but not at others. The geographical and organizational
separation makes knowledge transfer of the solution a challenge.

These challenges make it difficult for a conventional management
structure to ensure Residents’ concerns and challenges are appropriately
addressed and that a formal response is consistently provided in a timely
manner. This contributes to Residents’ perception that staff in
headquarters and regional offices are disengaged and not responsive to
perspectives regarding Residents’ concerns and support needs.

One way to obtain Residents’ concerns, feedback, and perspectives is by
the assignment of one or more executive champions or comparable
support system to the Resident Inspector program. An executive
champion or comparable support system is typically an individual or group
that:

•   Has access and influence with senior management in the organization.

•   Is able to energetically and consistently support program activities,
    policies, and processes, and address common challenges.

•   Provides a view that transcends program and office boundaries.

•   Serves the strategic purpose of ensuring that resources are available
    and that cross-functional issues are resolved.

•   Facilitates the flow of information between staff and the organizations
    that provide them support.

                              10
                                                 Survey of NRC’s Support Provided to Resident Inspectors




               After reviewing a draft of this report, agency managers stated that the
               Directors of the Divisions of Reactor Projects (DRP) located in each region
               already serve in a champion-like capacity for Resident Inspectors. OIG
               auditors did not find any documentation that describes the DRP regional
               directors’ roles and responsibilities in this capacity. 9 During subsequent
               discussions with OIG auditors, agency managers described a need for the
               Executive Director for Operations to take measures to ensure that the
               roles and responsibilities for existing support systems for Residents’
               needs and concerns are communicated and understood by the
               appropriate management and staff, and are effectively executed.

               Improved Support Could Enhance Job Performance, Morale, and
               Engagement

               If Residents’ perspectives regarding support-related needs and concerns
               are not consistently and appropriately addressed in a timely manner, their
               ability to perform assigned duties could be affected. Some forms of
               support, particularly technical support, are critically important to the
               Residents’ ability to adequately and consistently perform their oversight
               mission. For example, Residents seek technical support from
               headquarters in part to determine whether action should be taken against
               a licensee for a violation or nonconformance. Without consistent support,
               technical and otherwise, there may be inconsistency in how the
               significance of regulatory issues is determined. Subsequently, licensees
               may perceive disparate treatment should Residents not disposition
               regulatory issues in the same way.

               Furthermore, because Residents work remotely, inconsistent and
               insufficient support also has the potential to perpetuate the feeling among
               Residents of being disconnected or isolated from the larger NRC. As a
               result, the morale and level of engagement within the Resident population
               could be negatively affected.




9
 Documentation reviewed includes agency Management Directives, Inspection Manual Chapters, and the
DRP directors’ position descriptions.

                                               11
                              Survey of NRC’s Support Provided to Resident Inspectors




Recommendations

OIG recommends that the Executive Director for Operations:

   1. Identify a formal mechanism for obtaining Residents’ perspectives
      regarding support issues.

   2. Take measures to ensure that the roles and responsibilities for
      existing support systems for Residents’ needs and concerns are
      communicated and understood by the appropriate management
      and staff, and are effectively executed.




                            12
                                        Survey of NRC’s Support Provided to Resident Inspectors




IV.   AGENCY COMMENTS

         On November 18, 2013, OIG issued the discussion draft of this report to
         the Executive Director for Operations. OIG met with NRC senior
         management on December 19, 2013, to discuss concerns with the draft
         audit report and accommodate the agency’s request to postpone the exit
         conference. Informal written comments were provided by the agency on
         December 24, 2013. The exit conference was rescheduled for January
         23, 2014. At these meetings, the agency provided informal comments,
         which OIG subsequently incorporated into the draft report as appropriate.
         On February 19, 2014, NRC provided formal comments to the draft report
         that indicated its general agreement with the revised audit report and
         recommendations.

         Appendix A contains the audit Objective, Scope, and Methodology;
         Appendix B contains the Survey Design and Administration; Appendix C
         contains a copy of the agency’s formal comments; and Appendix D
         contains OIG’s analysis of the agency’s formal comments.




                                      13
                                       Survey of NRC’s Support Provided to Resident Inspectors


                                                                                   APPENDIX A
OBJECTIVE, SCOPE, AND METHODOLOGY

    OBJECTIVE

        The audit objective was to survey the effectiveness of NRC support
        provided to the Resident Inspectors at nuclear power plants, fuel-cycle
        facilities, and construction sites.

    SCOPE

        This audit focused on evaluating the effectiveness of NRC support
        provided to Residents. OIG also performed a review of the agency’s use
        of comprehensive program evaluations as a means to monitor and
        evaluate the Resident Inspector program. We conducted this
        performance audit at NRC headquarters in Rockville, MD, and each of the
        four NRC regional offices in King of Prussia, PA; Atlanta, GA; Lisle, IL;
        and Arlington, TX, from October 2012 through May 2013. Internal controls
        related to the audit objective were reviewed and analyzed. Throughout
        the audit, auditors were aware of the possibility or existence of fraud,
        waste, or misuse in the program.

    METHODOLOGY

        The audit team reviewed relevant Federal guidance, including GAO’s
        Internal Control Management and Evaluation Tool and OMB Circular
        A-123, Management’s Responsibility for Internal Control, December 2004.
        The team also reviewed NRC planning documents such as the agency’s
        2008-2013 Strategic Plan, as well as operating documents including
        inspection procedures and inspection manual chapters. Several policy-
        related internal communication documents pertaining to the Resident
        Inspector program were also reviewed. The audit team also developed
        and administered a survey designed to assess Residents’ perspectives on
        various types of support provided to them by the agency. The survey and
        the results are described in further detail in Appendix B. Additionally, OIG
        auditors conducted numerous interviews with NRC staff at headquarters
        and regional offices to obtain further information and insight on the
        Resident Inspector program. Lastly, the audit team attended all four
        regional counterpart meetings held in December 2012 during which time



                                      14
                               Survey of NRC’s Support Provided to Resident Inspectors




members of the team met with Resident Inspectors and regional
management.

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objective.

The audit work was conducted by RK Wild, Team Leader; Kevin
Nietmann, Senior Technical Advisor; Jaclyn Storch, Audit Manager;
Andrea Ferkile, Audit Manager; Avinash Jaigobind, Senior Analyst; Ziad
Buhaissi, Senior Auditor; Tincy Thomas, Senior Auditor; Tariq Noaman,
Analyst; and Jenny Cheung, Auditor.




                             15
                                       Survey of NRC’s Support Provided to Resident Inspectors


                                                                                   APPENDIX B
SURVEY DESIGN AND ADMINISTRATION

        The OIG Resident Inspector survey was designed using Microsoft
        SharePoint and included a series of 17 multiple-choice questions
        regarding various aspects of support provided to Residents from regional
        and headquarters offices. The questions were designed to elicit the
        respondent’s level of agreement or disagreement with each question.
        Respondents were also invited through the survey instrument to provide
        written comments on topics addressed by the survey questions.

        The survey was administered from March 11, 2013, to March 29, 2013.
        This yielded a survey universe of 144 Residents, each of whom was
        invited to participate in the survey. A total of 79 Residents completed the
        survey for an overall survey response rate of 55 percent. Of the 79
        completed surveys, 35 Residents also provided multiple written
        comments. The following table shows the cumulative percentage of
        Residents’ responses to all 17 survey items.




                                      16
                                                    OIG Analysis of Item Responses From the OIG-Administered Survey

                                                                                       Total Disagree        Neutral               Total Agree

                                                                                                            0%            10%             20%             30%        40%   50%        60%         70%            80%   90%   100%

         1. Overall, I feel that I am provided adequate support from headquarters to perform my job.             7                        23                                                71

            2. Overall, I feel that I am provided adequate support from the region to perform my job.                11                14                                               74

           3. I feel that I am provided adequate immediate management support to perform my job.                     13                        18                                            70

                4. I feel that I am provided adequate senior management support to perform my job.                        16                        19                                           65
5. I have adequate time, resources (IT administrative, technical manual chapters) to be clear, concise,
                                                                                                                           19                        14                                      67
                                           and understood.
6. I find current inspection guidance (inspection procedures, inspection manual chapters) to be clear,
                                                                                                                     12                              28                                               59
                                        concise, and understood.
   7. I have been provided adequate continuous training to perform my responsibilities and duties as
                                                                                                                     13                9                                               79
                                                  assigned.
                    8. I receive timely, high-quality technical support in resolving technical questions.             14                             24                                           62

                   9. I receive timely, high-quality technical support in resolving regulatory questions.             16                                    33                                              52
10. I believe that expertise, experience, and technical background are appropriately considered when
                                                                                                                           19                                  27                                          54
                          Resident Inspectors are assigned to a site or facility.
 11. I believe the qualification process for becoming a Resident Inspector is well designed, adequate,
                                                                                                                     13                         22                                               66
                                     and appropriately administered.
              12. My decisions as a Resident Inspector are appropriately supported by management.                         16                        19                                           65
  13. I believe the current inspection requirements provided enough flexibility to adequately perform
                                                                                                                 9                   14                                                78
                                                   my job.
 14. I have good continuity in my position and am not inappropriately assigned away from my site for
                                                                                                                 8             5                                                 88
                                        significant periods of time.
 15. I am able to easily identify an appropriate point of contact at headquarters to provide additional
                                                                                                                           20                                   27                                         53
                                    technical assistance when needed.
16. I receive adequate and appropriate support from headquarters and the region when developing a
                                                                                                                      14                        19                                           67
                                                  finding.
              17. I believe coordination of support between the region and headquarters is effective.                13                                   34                                               53




                                                                                                             17
                                                          Survey of NRC’s Support Provided to Resident Inspectors




                OIG also performed a content analysis of survey comments made by
                Residents. The results are shown in the following figure. Based on the
                content analysis, 11 categories were identified as areas of concern
                regarding insufficient support for Residents. The most commonly noted
                concerns cited by Residents included insufficient support with inspection
                guidance and the TIA process, and communication difficulties associated
                with identifying points of contact within headquarters. The content
                analysis generally confirmed the distribution of responses to the 17 survey
                items as issues of particular concern to the Resident population.

Content Analysis on Residents’ Comments

               Categories                    Content Analysis
          Work Policies/Practices            3

         Management/Leadership                                        7

                        Feedback                          5

          Guidance (IPs and IMCs)                                                                          18

 Points of Contact/Communication                                              8

     Inspection Reports & Findings                   4

    TIA Process/Technical Support                                                 9

        Physical Resource Support                    4

         Training & Qual Program                                  6

                     FTE/Staffing                                 6

              Relocation Program                     4

          # of respondents           0   2       4            6           8       10   12   14   16   18        20



Source: OIG analysis of written comments from the OIG-administered survey.




                                                         18
                          Survey of NRC’s Support Provided to Resident Inspectors


                                                                      APPENDIX C
AGENCY FORMAL COMMENTS




                         19
 Survey of NRC’s Support Provided to Resident Inspectors




20
 Survey of NRC’s Support Provided to Resident Inspectors




21
 Survey of NRC’s Support Provided to Resident Inspectors




22
                                       Survey of NRC’s Support Provided to Resident Inspectors


                                                                                   APPENDIX D


OIG ANALYSIS OF AGENCY FORMAL COMMENTS

        On November 18, 2013, OIG issued the discussion draft of this report to
        the Executive Director for Operations. OIG met with NRC senior
        management on December 19, 2013, to discuss concerns with the draft
        audit report and accommodate the agency’s request to postpone the exit
        conference. Informal written comments were provided by the agency on
        December 24, 2013. The exit conference was rescheduled for January
        23, 2014. At these meetings, the agency provided informal comments,
        which OIG subsequently incorporated into the draft report as appropriate.
        On February 19, 2014, NRC provided formal comments to the draft report
        that indicated its general agreement with the revised audit report and
        recommendations.

        OIG has assigned a reference number to each of the agency’s
        comments to aid the following point-by-point analysis:

               Agency Comment 1:

        “Information Technology (IT) and relocation issues – Support for
        relocations remains a topic of continued study and interest. The
        NRC will evaluate information about the concerns of resident
        inspectors (RIs) to determine if there are specific improvements that
        the agency can implement. In addition, the NRC is engaging
        regional offices to revise the fiscal year (FY) 2014 Enterprise
        Roadmap that captures the agency’s IT capability needs over
        multiple fiscal years. The NRC will begin using the Enterprise
        Roadmap to support the agency wide fiscal IT budget formulation
        process.”

                      OIG Response to Agency Comment 1:

        OIG appreciates the agency’s continued interest in studying the
        relocation program for Resident Inspectors as this remains an area of
        concern among the Resident population. Additionally, OIG
        encourages the agency to continue to evaluate the IT needs of the



                                     23
                                 Survey of NRC’s Support Provided to Resident Inspectors




Resident Inspectors in order to find timely, workable solutions to
common recurring problems associated with IT support.

        Agency Comment 2:

“Reliance on survey of RI perceptions – Appendix A of the draft report
identifies that the audit objective was to evaluate the effectiveness of NRC
support provided to the residents. In addition to the insights gained from
the residents, the scope and methodology described in the draft audit
report indicated that the following were included: (a) operating documents,
including inspection procedures, and inspection manual chapters, (b)
policy-related internal communication documents, (c) interviews with NRC
staff at headquarters and regional offices, and (d) meetings with regional
management. In light of this, the agency would be interested in any
additional information from OIG’s audit of these areas and any additional
insights regarding the RI perceptions from the survey that would inform its
approach to implementing your recommendations.”

               OIG Response to Agency Comment 2:

Appendix A of the audit report states that the objective of the audit
“…was to survey the effectiveness of NRC support provided to the
Residents at nuclear power plants, fuel-cycle facilities, and construction
sites.” The term “survey” is used to represent the portion of the
fieldwork the audit team conducted via an OIG-developed survey, in
order to obtain direct feedback and perspectives from Resident
Inspectors on various aspects of support. A significant amount of
fieldwork consisted of document review which included reviewing
internal office and policy related documentation, as well as internal
agency Web sites. The audit team also attended regional counterpart
meetings and throughout the course of fieldwork interviewed
management and staff involved in the Resident Inspector program. In
short, the resulting audit report represents a variety of fieldwork
activities and is not reliant solely on the results of the Resident
Inspector survey.

All pertinent information that directly supports the audit work, including
the finding and resulting recommendations, is included in the audit



                               24
                                Survey of NRC’s Support Provided to Resident Inspectors




report. It is not the practice or policy of OIG to share any specific
information beyond that which is presented in the audit report,
including that which identifies particular staff and/or management with
whom the OIG may have interacted.

        Agency Comment 3:

“Regional management involvement - Appendix A of the draft report
stated that the team met with regional managers. However the draft
report does not reflect any results from these meetings. There is a
significant regional management role in providing support to RIs.
Numerous regional managers were once RIs themselves and they have
a genuine interest in the well-being of the RI staff, including technical
and quality of life factors. Every manager that has spent time at a site is
an instinctive champion for the RIs. Each of the significant interactions
outlined below provide opportunities for residents to directly interface
with multiple levels of regional management:

   •   RI branch chief conference calls several times a week
   •   RI quarterly calls with division management
   •   RI quarterly calls with regional administrators (may vary by
       Region)
   •   Quarterly branch chief site visits
   •   Division director or deputy site visits (each site about every 24
       months)
   •   Periodic senior management site visits
   •   RI inspection debriefs and branch findings calls
   •   Semi-annual regional counterpart meetings”

           OIG Response to Agency Comment 3:

OIG agrees that Residents have significant interaction with various
managers as shown above. However, this audit was not a review of
Residents’ interaction with regional management and other staff.
Rather, this audit was focused on reviewing support provided to
Residents as well as Residents’ concerns with the resolution of
Resident-identified support issues. OIG recognizes the important role
that the regional managers play in supporting the Resident Inspector
population and as such made note of it in the graphic on page 9 of the

                              25
                               Survey of NRC’s Support Provided to Resident Inspectors




report where the role and interactions of regional and headquarters
management are discussed.

As per OIG policy, Appendix A of the report does not explicitly state
who the audit team met with and/or interviewed during fieldwork. As
noted in OIG’s Response to Agency Comment 2, it is not the practice or
policy of OIG to share any specific information beyond that which is
presented in the audit report, including that which identifies particular
staff and/or management with whom OIG may have interacted.

        Agency Comment 4:

“Comprehensive program evaluations, performance audits,
operating documents, and policy-related documents related to the
RI program – Objective evidence of formalized mechanisms for
obtaining, reviewing, and responding to RI perspectives regarding the
type and level of support they are currently receiving is provided in
several documents and internal (pre-decisional and non-public) Web
sites, including:

    • IMC 0102 Oversight and Objectivity of Inspectors and Examiners
      at Reactor Facilities

    • IMC 0307 Reactor Oversight Process (ROP) Self-Assessment
      Program and ROP Self-Assessment SharePoint Site

    • IMC 0801 Reactor Oversight Process Feedback Program and
      Associated SharePoint Site”

           OIG Response to Agency Comment 4:

The audit team reviewed Inspection Manual Chapter documents during
the audit, and concluded that the documents do not describe an
institutionalized mechanism of support for Residents. None of the
documents describe any mechanisms for Residents or other inspectors
to solicit or obtain support. The first document mentions Residents
within the context of managers’ supervisory oversight of Residents in
order for Residents to maintain objectivity. There is no discussion in
the document about how Residents can use this performance oversight

                             26
                               Survey of NRC’s Support Provided to Resident Inspectors



Inspection Manual Chapter for obtaining support. The latter two
documents describe mechanisms for ROP evaluation and
improvements, not inspector support. OIG acknowledges that some
suggestions for program improvement may also serve as a form of
support. However, OIG has concluded such instances would be
coincidental to the overall purpose of the IMCs to evaluate and solicit
suggestions for program-level improvements.

        Agency Comment 5:

“Internal (pre-decisional and non-public) Web pages, SharePoint
sites, online forums, newsletters, etc. – are readily accessible to
RIs and provide support and opportunities for RIs to engage in a
timely manner and enable them to perform their jobs.

     • Nuclear Reactor Regulation (NRR), Division of Inspection and
     Regional Support (DIRS), Reactor Inspection Branch (IRIB),
     Performance Assessment Branch (IPAB) and Regions 1, 2, 3, and
     4 SharePoint Sites.

     • ROP Digital City Web Site

     • Projects and Working Groups SharePoint Site

     • Inspector News Letter SharePoint Site

     • Office of Enforcement SharePoint Site

     • Reactor OpE Information Gateway Web Site”

           OIG Response to Agency Comment 5:

The aforementioned electronic interfaces serve primarily as an
information resource for NRC staff in numerous occupations to obtain
additional knowledge on, among other things, inspection activities and
NRC policy. In that capacity, they are an invaluable tool to NRC staff.
However, OIG has concluded that they currently do not serve as a




                             27
                              Survey of NRC’s Support Provided to Resident Inspectors



source of staff or management support for Residents in that these
interfaces are passive and thus require the end-user to be aware of
them, have an operating knowledge of how they work and what types of
information they contain, and have the time to search through them.
Their passive nature also means that a timely and/or official response to
a question or comment raised by a Resident is not guaranteed.




                             28
